SEMIANNUAL REPORT TO CONGRESS 





       U.S. ELECTION ASSISTANCE 

                COMMISSION 

     OFFICE OF INSPECTOR GENERAL 





For the Period:
April 1, 2010, through
September 30, 2010
A Message from the Inspector General 


This report is submitted to Congress pursuant to the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of
Inspector General (OIG) for the six-month period ending September 30,
2010.


During this semiannual reporting period, we issued five reports on audits
and evaluations conducted relating to U.S. Election Assistance
Commission (EAC) programs and operations. Four reports were audits of
the states’ uses of Help America Vote Act (HAVA) funds. One report
summarized an evaluation of EAC’s use of appropriated funds to settle a
claim of a prohibited personnel practice brought by a candidate for
employment with EAC.


We found that audited states are generally using HAVA funds properly.
The states continue to have issues complying with the provisions of
HAVA and applicable Office of Management and Budget circulars that
prescribe the documentation of personnel costs, maintenance of
inventories of equipment purchased with Federal funds, competition for
procurements, and deposit of HAVA funds in an interest-bearing election
fund. The four audit reports resulted in $3,139,543 in questioned costs.
The reports included 12 recommendations to the states to improve their
administration of HAVA funds and those recommendations were referred
to the EAC for resolution.


Based on comments provided by the EAC, the OIG made technical
corrections to Appendix C. The OIG provided the revised report to the
EAC on November 15, 2010.


We are pleased to see progress made by EAC in developing internal
policies and procedures to support its programs. However, the EAC still
has a significant amount of work to do in order to complete these




                                    i
necessary policies. We will continue to work with EAC as they develop
and implement policies and procedures to support and strengthen their
programs.


Submitted October 29, 2010
Reissued on November 15, 2010



Curtis W. Crider 

Inspector General 





                                   ii
Profile of Performance 


                 Audit and Evaluation Reports Issued
   for the Period April 1, 2010, through September 30, 2010



               EAC 
          Evaluations (1)
               20%




                                            HAVA Funds 
                                             Audits (4)
                                               80%




                            Profile of Performance 

   for the Period April 1, 2010, through September 30, 2010 



Results
Questioned Costs                                          $ 3,139,543
Potential Additional Program Funds                        $ 403,820
Funds to be Put to Better Use                                 $0




                                      iii
Table of Contents 

                                                       Page




Election Assistance Commission Profile                  1



Office of Inspector General Profile	                    2


State Audits                                            6


Reviews of EAC Operations	                              9


Other Activities                                       10



Appendices:
  A. Reports Issued                                    19

  B. Monetary Impact of Audit Activities	              20

  C. Reports with Questioned Costs                     21

  D. Reports with Potential Additional Program Funds   22

  E. Summary of Reports More Than Six Months Old       23

     Pending Corrective Action at September 30, 2010
  F. Summary of Reports More Than Six Months Old       25

     Pending Management Decision at September 30, 

     2010
  G. Reporting Requirements of the Inspector           26

     General Act




                                iv
Election Assistance Commission Profile


The U.S. Election Assistance Commission (EAC or Commission) is a
bipartisan, independent commission consisting of four members: Donetta
Davidson, Chair; Gineen Bresso; and Gracia Hillman. There is one vacancy
on the Commission due to the resignation of a Commissioner in February
2009. Several of the Commissioners are serving expired terms and are
holding over pending either reappointment or nomination and
confirmation of a replacement.1


The EAC was created by the Help America Vote Act of 2002 (HAVA) to
assist states with improving the administration of elections for Federal
office. The EAC accomplishes this mission by providing funding,
innovation, guidance and information to be used by the states to
purchase voting equipment, train election personnel, and implement new
election programs. The EAC has distributed approximately $3.1 billion in
grant funding to the 50 states, the District of Columbia, Puerto Rico, the
U.S. Virgin Islands, Guam and American Samoa (hereinafter referred to as
“states”). With those funds, the states have purchased voting equipment,
established statewide voter registration lists, implemented provisional
voting, provided informational material to voters at the polling place, and
implemented a program to verify the identity of voters using the
statewide voter registration list in combination with other state and
Federal databases.


The EAC also administers six other grant programs aimed at improving
pre- and post-election testing of voting equipment, recruiting and
training college-aged poll workers, conducting mock elections for
school-aged children, improving the collection of data related to
elections, and developing assistive technologies for voting equipment
used by disabled voters. The EAC has awarded nearly $14.5 million
under three of these programs. An additional, $9 million is available for
1
 Mr. Thomas Hicks has been nominated by the President to serve as an EAC Commissioner and is
awaiting confirmation by the United States Senate.



                                                 1

award under the Accessible Voting Technology Initiative and Pre-Election
Logic and Accuracy Testing and Post-Election Audit Initiative.


HAVA made EAC responsible for the first Federally-run testing and
certification program for voting systems. The testing and certification
program was begun in 2006. Through this program, the EAC develops
standards for voting equipment, accredits laboratories, and reviews and
certifies voting equipment based upon the tests performed by the
accredited laboratories.


The EAC is responsible for administering the National Voter Registration
Act (NVRA) by promulgating regulations for the content and use of the
National Mail Voter Registration form. The EAC has published proposed
changes to the NVRA regulations. Public comments are due on November
23, 2010.


Office of Inspector General Profile

HAVA required the appointment of an inspector general for the EAC and
amended the Inspector General Act (IG Act) of 1978 (5 U.S.C.A. App. 3) to
identify the EAC as a designated Federal entity (DFE). The Commission
appointed its first inspector general in August 2006 and the EAC’s Office
of Inspector General (OIG) was created.


The OIG has always been a very small office. At many times over the past
four years, the only employee of the OIG has been the inspector general.
Assistance has been provided by detailing employees from other
agencies, contracting for audits to be conducted by independent CPA
firms, and, finally, by hiring permanent staff to the OIG. In 2008, the OIG
hired two additional full-time employees. The OIG continues to be
supported by these three positions: inspector general, assistant inspector
general for audits and general counsel.




                                     2

Despite our small size, we perform all of the duties required of the
inspector general under the IG Act, including:


   	 Conducting and supervising audits, investigations, and other
      services (e.g., evaluations) relating to the programs and operations
      of the EAC;


   	 Providing leadership and coordination and recommending actions
      to management, which (1) promote economy, efficiency, and
      effectiveness in agency programs and operations; and (2) prevent
      and detect fraud, waste, abuse, and mismanagement of
      government resources; and


   	 Keeping the Commission, management, and Congress fully
      informed regarding problems and deficiencies, and the progress of
      corrective actions.


We have used detailees and contract auditors to augment our staff and to
conduct many of the state and agency audits. In addition, when
conducting an investigation, we work with other Federal government
agencies to detail or contract for investigative services. In keeping with
the President’s directives on contracting and in-sourcing, we have made
plans to reduce our reliance on outside contractors and to move some of
the audit work back in-house. As such, in FY 2010 and 2011, the
President’s budget requests reflected an increase in personnel from the
three current staff to a staff of seven full-time employees, including three
additional auditors and one in-house investigator. This will allow the OIG
to operate two audit teams that will conduct both internal and external
audits, evaluations and reviews in tandem with contracted audit firms.
Bringing some of the work back in-house will maintain our expertise on
EAC programs and operations.


Since the inception of the audit program, the OIG has completed 28
audits of states – with 10 additional audits under way. These audits
focus on the HAVA funding provided to and used by the states. Current


                                     3

audits also cover funds distributed by the EAC under other, smaller grant
programs such as the data collection grant program. Below is a listing of
states that have received HAVA funding from the EAC, the amount of
funding received, as well as how much of those funds have been subject
to audit by the OIG.

                                 Required      Total HAVA
                                State Match       Funds
                                 on HAVA        Available      Total HAVA     Unaudited
                 HAVA Funds        Funds        Excluding        Funds        HAVA Fund
        State     Received       Received        Interest       Audited        Balance
Alabama*          $40,907,194     $1,887,711     $42,794,905            $0     $42,794,905
Alaska            $18,021,803       $685,358     $18,707,161            $0     $18,707,161
American
Samoa              $3,319,361             $0     $3,319,361              $0     $3,319,361
Arizona^          $52,532,244     $2,395,616    $54,927,860              $0    $54,927,860
Arkansas          $30,396,569     $1,275,456    $31,672,025     $28,205,912     $3,466,113
California       $348,900,661    $13,907,217   $362,807,878    $213,941,386   $148,866,492
Colorado^         $44,752,318     $1,984,996    $46,737,314              $0    $46,737,314
Connecticut       $34,081,608     $1,530,611    $35,612,219     $34,168,003     $1,444,216
Delaware          $16,596,803       $610,358    $17,207,161              $0    $17,207,161
D.C.              $16,596,803       $610,358    $17,207,161              $0    $17,207,161
Florida          $165,008,621     $7,314,719   $172,323,340    $110,187,888    $62,135,452
Georgia           $83,231,168     $3,719,705    $86,950,873     $63,562,054    $23,388,819
Guam               $3,319,361             $0     $3,319,361              $0     $3,319,361
Hawaii*           $17,671,803       $666,937    $18,338,740              $0    $18,338,740
Idaho^            $18,021,803       $685,358    $18,707,161              $0    $18,707,161
Illinois        $155,480,687     $5,818,214   $161,298,901     $29,025,846   $132,273,055
Indiana           $70,193,158     $2,865,279    $73,058,437     $61,430,159    $11,628,278
Iowa              $31,633,492     $1,401,763    $33,035,255     $28,834,907     $4,200,348
Kansas^           $29,022,045     $1,264,318    $30,286,363              $0    $30,286,363
Kentucky          $42,070,094     $1,942,192    $44,012,286     $20,349,296    $23,662,990
Louisiana*        $49,051,620     $1,936,238    $50,987,858              $0    $50,987,858
Maine             $16,596,803       $610,358    $17,207,161              $0    $17,207,161
Maryland          $53,646,392     $2,440,634    $56,087,026     $27,683,205    $28,403,821
Massachusetts^    $65,115,060     $3,000,273    $68,115,333              $0    $68,115,333
Michigan          $94,699,081     $4,155,814    $98,854,895     $69,309,457    $29,545,438
Minnesota         $49,254,670     $2,312,678    $51,567,348     $42,303,899     $9,263,449
Mississippi       $30,603,916     $1,323,814    $31,927,730              $0    $31,927,730
Missouri          $62,262,661     $2,363,929    $64,626,590     $52,632,344    $11,994,246
Montana           $18,021,803      $685,358     $18,707,161     $15,380,563     $3,326,598
Nebraska^         $20,021,034       $790,581    $20,811,615              $0    $20,811,615
Nevada^           $23,144,727      $954,987     $24,099,714              $0    $24,099,714
New Hampshire     $16,596,803      $610,358     $17,207,161              $0    $17,207,161



                                       4

                                        Required       Total HAVA
                                       State Match         Funds
                                        on HAVA          Available       Total HAVA        Unaudited
                       HAVA Funds         Funds         Excluding           Funds         HAVA Fund
      State              Received       Received          Interest         Audited          Balance
New Jersey              $84,904,403     $3,582,505      $88,486,908       $16,771,106      $71,715,802
New Mexico               $20,599,671       $821,035      $21,420,706       $14,123,471       $7,297,235
New York*               $238,095,934     $9,052,512     $247,148,446                $0     $247,148,446
North Carolina           $82,203,337     $3,864,305      $86,067,642       $59,042,030      $27,025,612
North Dakota             $18,021,803       $685,358      $18,707,161                $0      $18,707,161
Ohio                    $136,496,196     $5,023,347     $141,519,543      $114,741,683      $26,777,860
Oklahoma                 $35,200,723     $1,589,512      $36,790,235                $0      $36,790,235
Oregon                   $36,421,250     $1,599,722      $38,020,972       $19,937,966      $18,083,006
Pennsylvania           $147,009,727     $5,935,244     $152,944,971       $17,459,399     $135,485,572
Puerto Rico               $5,470,505       $122,072        $5,592,577               $0       $5,592,577
Rhode Island             $18,021,803       $685,358      $18,707,161       $17,078,956       $1,628,205
South Carolina           $43,185,727     $1,913,989      $45,099,716       $35,165,678       $9,934,038
South Dakota             $18,021,803       $685,358      $18,707,161                $0      $18,707,161
Tennessee                $54,714,608     $2,433,481      $57,148,089       $27,601,101      $29,546,988
Texas^                  $203,631,823     $9,481,882     $213,113,705       $29,912,682     $183,201,023
Utah*                    $26,804,496       $946,669      $27,751,165                $0      $27,751,165
Vermont                  $16,596,803       $610,358      $17,207,161                $0      $17,207,161
Virginia                 $69,121,820     $3,025,756      $72,147,576       $33,270,545      $38,877,031
Virgin Islands            $3,319,361             $0        $3,319,361               $0       $3,319,361
Washington               $65,825,930     $2,785,688      $68,611,618       $42,474,187      $26,137,431
West Virginia*           $22,043,424       $879,837      $22,923,261                $0      $22,923,261
Wisconsin*               $54,013,843     $2,474,263      $56,488,106                $0      $56,488,106
Wyoming                  $17,671,803       $666,937      $18,338,740        $7,967,787      $10,370,953
Total                 $3,138,168,959   $130,616,378   $3,268,785,337    $1,232,561,510   $2,036,223,827
* Audit in progress
Second audit in progress
^Audit planned for FY 2011



The OIG’s program to ensure economy, efficiency and integrity in the use
of funds is not exclusively translated into audits of the EAC and its grant
recipients. The OIG also investigates allegations of waste, fraud, abuse
and mismanagement in EAC programs and operations. Over the past
year, the OIG has made a concerted effort to improve the information and
education of EAC personnel, grant recipients, and the general public
about our role in protecting the public’s investment in EAC programs and
our nation’s elections. We conducted training sessions, began issuing a
newsletter and retooled our web site content, all with the goal of
educating our constituents on our role and efforts to investigate


                                              5

allegations of waste, fraud, abuse, and mismanagement. These efforts
have paid off. We have noticed a marked improvement in the information
received in hotline complaints and a reduction in complaints that have to
be referred to other entities for investigation.

State Audits

HAVA funds have been distributed by the EAC to states for use to
improve the administration of Federal elections by purchasing new
equipment, establishing and operating statewide voter lists,
implementing provisional voting, and verifying the identity of persons
who wish to register to vote. The OIG conducts audits of the states’ use
of HAVA funds. Through those audits, the OIG examines:


      whether the recipient used HAVA funds in accordance with HAVA
       and other applicable Federal requirements;
      whether the recipient has properly accounted for purchases made
       with HAVA funds and any income derived from those purchases;
      whether grant funding was maintained and accounted for in
       keeping with HAVA; and
   	 whether the recipient provided sufficient matching funds and
       maintained Federal monies in a separate, interest-bearing election
       fund.


During the reporting period, the OIG contracted with the professional
auditing firm, Clifton Gunderson LLP, to conduct the HAVA funds audits.
Four reports were issued based upon those audits. Below are summaries
of those audits:


Connecticut: The audit of the Connecticut Secretary of State (SOS)
revealed that the SOS generally accounted for and expended HAVA funds
in accordance with the HAVA requirements and complied with the
financial management requirements established by the EAC. The SOS
also complied with section 251 requirements. However, the SOS did not



                                      6

maintain a comprehensive inventory of property purchased with HAVA
funds as required by the Uniform Administrative Requirements for Grants
and Cooperative Agreements with State and Local Governments, 41 C.F.R.
§ 105-71.132. Likewise, the audit found that the election jurisdictions
did not maintain adequate security over election equipment.


In its response to the draft report, the SOS generally agreed with the
report’s findings and recommendations and provided corrective actions
including ensuring that the election jurisdictions understand and adhere
to Federal security requirements.


The audit was referred to the EAC to resolve findings and
recommendations made in the report. The EAC indicated as a part of its
audit resolution that it would provide the Connecticut Secretary of State’s
Office with sample inventory sheets.

Montana: This audit of the Montana Secretary of State (SOS) disclosed
that the SOS generally accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the
financial management requirements established by the EAC. The SOS
also complied with Section 251 requirements. There were some
exceptions to this general finding:

      Failure to maintain adequate property records;
      Errors on financial reports submitted to the EAC;
      Failure to obtain prior approval for capital expenditures; and
      Failure of certain counties to accrue interest on idle HAVA funds.


In its responses to the findings and recommendations, the SOS generally
agreed with the findings and provided remedial measures to address the
findings. The EAC, through the audit resolution process, indicated that it
would work with the state of Montana to resolve the issues identified in
the report.




                                       7

Michigan: This audit of the Michigan Secretary of State (SOS) disclosed
that the SOS generally accounted for and expended HAVA funds in
accordance with the HAVA requirements and complied with the financial
management requirements established by the U.S. Election Assistance
Commission (EAC). The SOS also complied with Section 251
requirements. The audit did identify an exception to this general finding
in that the SOS did not deposit a sufficient amount of matching funds
into the HAVA fund and therefore had a principle and interest deficit in
the HAVA election fund.


In its responses to the findings and recommendations, the SOS generally
agreed with the findings and stated that it would deposit the principle
amount into the HAVA fund on or before October 1, 2009. The SOS
further proposed that it would offset the interest owed to the HAVA fund
against excess payments made by the SOS toward its maintenance of
effort requirement. The resolution of whether this is a sufficient or
acceptable remedy for the interest shortfall was referred to the EAC. The
EAC allowed Michigan to offset the shortfall in the HAVA fund with other
allowable expenditures.


Tennessee: The audit of the Tennessee Secretary of State’s Division of
Elections (SOS-DOE) revealed that the SOS-DOE failed to adequately
document payroll charges and that certain counties failed to properly
compete procurements. With the above noted exceptions, the audit
determined that the SOS-DOE generally accounted for and expended
HAVA funds in accordance with the HAVA requirements and complied
with the financial management requirements established by the EAC. The
SOS also complied with section 251 requirements.


The SOS-DOE generally agreed with the findings contained in the report,
namely that competitive procurement processes were not used and that
the SOS-DOE did not comply with OMB Circular A-87 in documenting
payroll charges to the HAVA grant. However, the SOS-DOE did not
believe that there was any harm associated with the lack of competition
on the voting system purchases as purchases made by other counties


                                     8

under a competitive process resulted in the same purchase price as those
that were not competitively bid. The EAC agreed with SOS-DOE.


Reviews of EAC Operations

Over the past six months, the OIG issued one evaluation of EAC
operations. The evaluation was requested by a member of Congress and
involved the EAC’s use of its fiscal year 2010 appropriation to settle a
claim. Details of the evaluation follow:

Use of Appropriated Funds to Settle a Claim

In 2009, a candidate for the position of EAC general counsel filed a
complaint with the Office of Special Counsel (OSC) alleging that the EAC
failed or refused to place him in the position due to his political
affiliation. The candidate alleged that he was offered the position,
accepted it, and that the employment offer was subsequently rescinded
by the Commission. An investigation by the OSC ensued. In December
2009, the EAC entered into a settlement agreement with the candidate in
which the EAC did not admit liability but agreed to pay the candidate an
undisclosed amount to resolve his claim with OSC and in exchange for
him withdrawing a similar complaint filed with the EAC Office of Inspector
General.


The OIG received a request from a member of Congress to review the
settlement agreement and to determine whether EAC had authority to
enter into the agreement, used appropriate fiscal year funds and followed
appropriate protocols in entering into the agreement. Our review found
that the EAC had the authority to settle this claim, used the appropriate
fiscal year funds, and that they sought and obtained the advice of other
government agencies in the absence of an established agency protocol
for handling such matters.




                                      9

Other Activities


Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and
policy-making efforts. We provide comment to significant policy
statements, rulemaking and legislation that affects the EAC. During the
reporting period, we reviewed six proposed policy statements or
proposed regulatory actions by the EAC:


      Proposed Notice and Comment Policy Version 2
      Proposed Privacy Policy Statement
      Proposed Rule of Agency Procedure No. 1: Procedures or Voting by
       Circulation Version 2.0
      Proposed Rulemaking: Nonprocurement Debarment and
       Suspension
      Proposed Rulemaking: National Voter Registration Act Regulations
      Maintenance of Expenditure Proposed Policy as Amended on 2-19-
       10


The OIG provided written comments and testimony for an EAC public
meeting with regard to the EAC’s maintenance of expenditure policy. The
OIG takes exception to the final policy statement adopted by the EAC.
For more information regarding this, see Significant Revised Management
Decisions and Significant Management Decisions with Which the Inspector
General Disagrees.


In addition to these items, the OIG reviewed various advisory opinions
issued by the EAC regarding the use of HAVA funds. The OIG also
reviewed proposals and issuances distributed by the administration such
as the administration’s proposed policy on the definition of “inherently
governmental.” Last, the OIG participated in and provided comments to
issues circulated by the Council of Inspectors General for Integrity and




                                    10 

Efficiency, including commenting on several pieces of legislation aimed at
altering the authorities and responsibilities of inspectors general.


Non-Federal Audits


OMB Circular A-133 establishes audit requirements for State and local
governments, receiving Federal awards. Covered entities that expend
$500,000 or more a year in Federal awards are required to obtain an
annual organization-wide audit “single audit”. The audits are conducted
by non-Federal auditors, such as public accounting firms and State
auditors. OIG reviews the resulting audit reports, findings and
questioned costs related to EAC awards.


During this reporting period, the OIG referred the following single audits
to the EAC:


   	 West Virginia Single Audit for the Year Ended June 30, 2009
      (Assignment No. E-SA-WV-53-10)
      The single audit report identified one instance of non-compliance
      applicable to the West Virginia Secretary of State’s (SOS)
      administration of HAVA funds. The audit reported that the SOS did
      not complete the required semi-annual certification for one
      employee that worked full time on HAVA for the period July 1,
      2007 through August 31, 2009. The SOS provided semi-annual
      certifications for the period March 7, 2005 through June 30, 2009;
      the certifications were signed on October 8, 2009. The audit
      questioned $124,276 in salary costs.


   	 Illinois Statewide Single Audit for the Year Ended June 30, 2009
      (Assignment No. E-SA-IL-16-10(A))
      The single audit report contained two material weaknesses
      applicable to the Illinois State Board of Elections’ administration of
      HAVA funds. Both of the material weaknesses were also considered
      noncompliance findings. The audit found that the State Board did
      not perform on-site reviews of sub recipients that received HAVA


                                     11 

      funds. The SBOE passed through approximately $5.7 million to
      sub-recipients in fiscal year 2009. This finding was issued in prior
      years. see finding codes 08-91, 07-81 and 06-89. The audit also
      found that the State Board did not review OMB A-133 reports for
      sub-recipients, had not performed desk reviews for any of its sub-
      recipients, and has not implemented procedures to follow-up on
      missing reports.

Investigations


The OIG operates a hotline for the receipt of complaints from employees
and members of the public. The OIG received 12 complaints during the
reporting period. Four of those complaints did not warrant an
investigation given the nature of the complaint. Two of the complainants
were referred to the EAC as the appropriate place to make the complaint
and seek remedial action. Five complaints were referred to other
government agencies for response. One complaint was investigated and
closed following determination that the allegations were not within the
jurisdiction of the EAC OIG. One complaint has been referred to the
OIG’s audit division for further audit and investigation.


Audits and Evaluations In Progress


During the reporting period, the OIG began or continued work on ten
audits of states’ use of HAVA funds. These audits were not completed by
the end of the reporting period.


The OIG also continued work on one audit that was requested by
members of Congress and the EAC Chair. The audit covers grants
distributed by the EAC to Project Vote, an affiliate of the Association of
Community Organizations for Reform Now (ACORN). The EAC made
grants to Project Vote for work in two states under the EAC’s College Poll
Worker Program. The grants were for $16,876 each and were awarded in
2006. The OIG issued the draft report to the EAC for comment on




                                     12 

September 15, 2010 and anticipates issuing a final report in November
2010.


Significant Revised Management Decisions


In 2007, the EAC issued a policy statement with regard to the
maintenance of effort requirement imposed on states that receive
requirements payments funding under HAVA. HAVA requires that states
show:


        How the State, in using the requirements payment, will
        maintain the expenditures of the State for activities funded
        by the payment at a level that is not less than the level of
        such expenditures maintained by the State for the fiscal year
        ending prior to November 2000.


HAVA, Section 254(a)(7); 42 U.S.C. § 15404(a)(7). The maintenance of
effort policy previously issued by the EAC was contained in two
advisories, EAC 2007-003 and EAC 2007-003-A. Those advisories
indicated that the maintenance of effort requirement contained in HAVA
was a cost sharing method and that the requirement applied to the use of
HAVA funds by states and subrecipients, including counties,
municipalities, and other local governments that received HAVA funds.


On April 16, 2008, the EAC suspended the application of these two
advisories pending a subsequent determination by the Commission
regarding its interpretation of the maintenance of effort requirement.
The EAC debated this issue for nearly two years. On February 19, 2010,
the EAC adopted a proposed policy regarding HAVA’s maintenance of
expenditure/effort (MOE) requirement.2 The proposed policy would
exempt, with limited exceptions, subrecipients, including counties,
municipalities and other local governments, from the requirement of
maintaining their pre-HAVA election expenditures while using Federally-
2
  With the adoption of the proposed MOE policy on February 19, 2010, the EAC changed terminology
from “maintenance of effort” to “maintenance of expenditure.”


                                                 13 

provided funding to support their election activities. A number of other
changes were made from the initial advisories on maintenance of effort
including:


         Suggesting that states submit a maintenance of expenditure plan
          for approval to the EAC;
         Allowing states to identify what documents they would use to
          support their maintenance of expenditure costs;
      	 Allowing states to aggregate maintenance of expenditure costs
          amongst the state and local jurisdictions (where applicable) to
          demonstrate satisfaction of the requirement;
      	 Intimating that if the EAC accepted a state’s maintenance of
          expenditure plan that no findings would be issued in subsequent
          audits; and
      	 Permitting depreciation of capital assets not allowed by HAVA.


The EAC sought comments from the public for a period of 30 days.3 The
EAC received comments from seven different groups or individuals. The
OIG was amongst the seven groups that submitted formal comments
during the public comment period. The inspector general was asked to
testify at the EAC’s public meeting on June 28, 2010, regarding his
comments on the proposed maintenance of expenditure policy. The OIG
provided written testimony in lieu of traveling to Chicago for the meeting.
In those comments and testimony, the OIG took exception to the
proposed MOE policy. For more information regarding the OIG’s
objections to the proposed and final policy, see Significant Management
Decisions with Which the Inspector General Disagrees.


On June 28, 2010, the EAC issued a final MOE policy that replaced EAC
Advisories 2007-003 and 2007-003-A. The EAC’s new policy does not
apply HAVA’s MOE requirement to subrecipients unless those
subrecipients received funding appropriated by the state in the base year,

3
    The EAC published a notice seeking public comments in the Federal Register on March
19, 2010. See 75 FR 13265.



                                            14 

the fiscal year preceding November 2000. The new policy further
suggests but does not require that states submit an MOE plan. The policy
continues to allow states to specify the documentation that it will use to
support MOE costs. The policy was amended to require that states
consider the entire cost of capital expenditures when calculating their
MOE requirements as opposed to allowing them to depreciate the cost of
those capital expenditures.


Significant Management Decisions with Which the Inspector General
Disagrees


The OIG takes exception to the MOE policy4 adopted by the EAC. The OIG
believes that EAC policies should conform to the letter and spirit of HAVA
as well as other applicable federal statutes, regulations and guidelines
concerning the administration of grants. The OIG identified several areas
in which the MOE policy and applicable law do not align.


The first instance is the applicability of the MOE policy to subgrants or
subawards made by states (EAC’s primary grantee) to units of local
government such as counties, parishes, and municipalities. The EAC’s
policy exempts all but a few counties, municipalities and other local
governments from the MOE requirement despite their past, current and
future involvement in funding and conducting elections and in
implementing HAVA’s election reforms.


EAC makes grants to states. Many of those states have subsequently
made subawards to counties, municipalities, and other local governments
that have responsibilities for conducting elections and implementing
HAVA. According to the EAC’s policy, only those local governments that
were appropriated funds from the state treasury during the base year (the
fiscal year preceding November 2000) are subject to the MOE
requirement. All other subrecipients of HAVA funds are exempted from
the requirement to maintain their local expenditures on elections.
4
    See Significant Revised Management Decisions for more information about the MOE policy.



                                                   15 

A framework of federal guidance on the administration of grants by
states and units of local government is already in place. However, EAC’s
policy deviates from that guidance.5 Office of Management and Budget
Circular A-102, also known as the Common Rule, provides that
requirements placed on the grant flow through to subawardees. A link is
created between the receipt of funds under the grant or subgrant and the
requirements that affect the grant. The EAC’s policy breaks that link and
makes only those local governments who received funds by appropriation
from the state legislatures during the base year subject to the MOE
requirement.


As stated more fully in our written comments to the proposed
maintenance of expenditure policy, we believe that the application of the
policy neither comports with the letter of applicable federal law nor
Congress’ intention in passing HAVA. HAVA was intended to improve,
not maintain the process and procedure for conducting Federal elections.
Congress used the MOE provision to ensure that the Federal investment
in the election process would increase, rather than maintain, spending by
states and local governments as they prepare for and conduct elections.
The impact of limiting the application of this policy to local governments
that received appropriations from the state legislatures is to allow those
local governments to supplant their local expenditure on elections with
the available Federal funds. This treatment does not protect the
investment made by the American public in elections and does not honor
the spirit of HAVA.6


The second area of concern relates to the aggregation of MOE costs
permitted by the proposed policy. Simply stated, one unit of local
government’s expenditure on elections cannot be used to satisfy a deficit

5
    To our knowledge, the EAC has not received approval from OMB to deviate from the
requirements of OMB Circular A-102, the Common Rule.
6
    This is the same position taken by the Congressional Research Service in an opinion
provided to Representative Charles Gonzales in June 2008. The EAC and OIG were
provided with copies of this opinion.


                                             16 

in spending by another or even by the state. Section 254(a)(2) of HAVA
requires the states to monitor each of the local jurisdictions’ efforts at
compliance, including the distribution and use of HAVA funds to local
governments for their use in meeting the HAVA requirements. Each unit
of government that receives HAVA funds should be accountable for
meeting the grant requirements and demonstrating that they have met
the MOE requirement.7


The third concern is that the MOE policy impinges on the authority of the
Office of Inspector General and the independence of its audits. The
policy allows states to propose what are acceptable forms of
documentation of expenses. The OIG conducts audits and issues
findings based upon its assessment of state’s compliance with HAVA,
allowable use of HAVA funds, and the existence of appropriate
supporting documentation for those expenses. EAC’s action to approve a
state’s plan will not insulate a state from an audit finding if the state fails
to provide adequate documentation.


Matters Referred to Prosecuting Authorities


We are reporting no activities in this category during the reporting
period.


Denial of Access to Records


We are reporting no activities in this category during the reporting
period.


Peer Review Reports


The EAC OIG was subject to a peer review in 2009. The review was
conducted by the Federal Maritime Commission Office of Inspector

7   The Office of Management and Budget provided the same information to the EAC in
May 2008. The OIG encouraged the EAC to discuss this matter with OMB.



                                           17 

General (FMC OIG). The report detailing that review was issued on June
10, 2009. The FMC OIG gave the EAC OIG a “pass” rating. No material
deficiencies were noted. However, the FMC OIG did address four issues
in its letter of comment:


      Complete independent statements in keeping with audit policy;
      Monitor continuing professional education requirements of
       auditors detailed from other OIGs;
      Use work paper check list to ensure that work papers have
       sufficient support for audit documentation and supervisory review;
       and
      Ensure technical checklist for monitoring audits performed by
       independent public accountants is used for each such audit.


Each of these recommendations has been implemented. There are no
outstanding recommendations.


The EAC OIG conducted a peer review of the Consumer Product Safety
Commission Office of Inspector General (CPSC OIG) in 2008. The
reported noted that the CPSC OIG had designed and implemented a
system of quality control that complied with applicable standards. The
report identified five issues on which recommendations were made.
According to the CPSC OIG, all recommendations have been
implemented.




                                    18 

                                                      Appendix A
Reports Issued


State Audits     1. Administration of Payments Received Under
                 the Help America Vote Act by the Connecticut
                 Secretary of State’s Election Division
                 (Assignment Number E-HP-CT-07-10),
                 September 2010


                 2. Administration of Payments Received Under
                 the Help America Vote Act by the Montana
                 Secretary of State (Assignment Number E-HP-
                 MT-02-10), September 2010


                 3. Administration of Payments Received Under
                 the Help America Vote Act by the Michigan
                 Department of State (Assignment Number E-
                 HP-MI-01-08), April 2010


                 4. Administration of Payments Received Under
                 the Help America Vote Act by the Tennessee
                 Secretary of State’s Election Division
                 (Assignment Number E-HP-TN-02-09), April
                 2010

EAC Audits and   1. Use of Appropriated Funds to Settle a Claim

Evaluations      (Evaluation Report No. I-EV-EAC-01-10),
                 September 2010


Investigations   None




                           19 

                                                         APPENDIX B
Monetary Impact of Audit Activities


Questioned Costs*                                      $ 3,139,543
Potential Additional Program Funds                       $ 403,820
Funds to Be Put to Better Use                                  $0
Total                                                   $3,543,363
*Unsupported costs are included in questioned costs.




                                         20 

                                                             APPENDIX C
Reports With Questioned Costs

                                              Questioned    Unsupported
          Category               Number         Costs          Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            4          $ 3,088,308       $0

B. Which were issued during
the reporting period.              1          $ 3,139,543       $0

Subtotals (A + B)                  5          $ 6,227,851       $0

C. For which a management
decision was made during the
reporting period.                  3          $ 5,956,625       $0

 (i) Dollar value of
recommendations that were
agreed to by management.                       $ 698,479        $0

 (ii) Dollar value of
recommendations not agreed
to by management.                             $5,258,146        $0

D. For which no management
decision has been made by
the end of the reporting
period.                            2          $ 271,226         $0




                                       21 

                                                       APPENDIX D
Reports With Potential Additional Program Funds

            Category                       Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                      3      $ 873,404
B. Which were issued during the
reporting period.                            2      $ 403,820

Subtotals (A+B)                              5      $ 1,277,224

C. For which a management
decision was made during the
reporting period.                            5      $ 1,277,224

 (i) Dollar value of
recommendations that were agreed
to by management.                                   $ 1,219,138

 (ii) Dollar value of
recommendations that were not
agreed to by management.                             $ 58,086

D. For which no management
decision has been made by the end
of the reporting period.                     0          $0




                                    22 

                                                                      APPENDIX E
Summary of Reports More Than Six Months Old Pending
Corrective Action at September 30, 2010

The following is a list of audit and evaluation reports that are more than six
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

I-EV-EAC-01-07B            Assessment of the U.S. Election Assistance
                           Commission’s Program and Financial Operations,
                           February 2008, 8 Recommendations


I-EV-EAC-01-08             United States Election Assistance Commission Federal
                           Information Security Management Act 2008
                           Independent Evaluation Report, October 2008, 2
                           Recommendations


I-PA-EAC-01-08             Audit of the U.S. Election Assistance Commission’s
                           Fiscal Year 2008 Financial Statements, November
                           2008, 1 Recommendations


I-PA-EAC-02-08             Audit of U.S. Election Assistance Commission’s
                           Compliance with Section 522 of the 2005 Consolidated
                           Appropriations Act, March 2009, 2 Recommendations


I-PA-EAC-02-09             Evaluation of Compliance with the Requirements of the
                           Federal Information Security Management Act, October
                           2009, 2 Recommendations


E-HP-FL-02-08              Administration of Payments Received Under the Help
                           America Vote Act by the State of Florida, November
                           2008, 1 Recommendation



                                         23 

E-HP-IA-06-08 	   Administration of Payments Received Under the Help
                  America Vote Act by Iowa’s Secretary of State,
                  September 2009, 9 Recommendations


E-HP-RI-05-07 	   Administration of Payments Received Under the Help
                  America Vote Act by The Rhode Island and Providence
                  Plantations Secretary of State’s Election Division,
                  September 2009, 6 Recommendations

E-HP-CA-01-09 	   Administration of Payments Received Under the Help
                  America Vote Act by the California Secretary of State,
                  December 2009, 3 Recommendations


E-HP-AR-03-09 	   Administration of Payments Received Under the Help
                  America Vote Act by the Arkansas Secretary of State,
                  February 2010, 4 Recommendations




                               24 

                                                                 APPENDIX F
Summary of Reports More Than Six Months Old Pending
Management Decision at September 30, 2010

There no reports more than six months old pending a determination by
management as of the end of this reporting period.




                                      25 

                                                                                  APPENDIX G
Reporting Requirements of the IG Act

 Section of Act                               Requirement                               Page

Section 4(a)(2)       Review of Legislation and Regulations                              10

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                    None

Section 5(a)(2)       Recommendations for Corrective Action With Respect to             None
                      Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)       Significant Recommendations From Agency’s Previous Report on
                      Which Corrective Action Has Not Been Completed                     23

Section 5(a)(4)       Matters Referred to Prosecuting Authorities and Resulting         None
                      Convictions

Section 5(a)(5)       Matters Reported to the Head of the Agency                        None

Section 5(a)(6)       List of Reports Issued During the Reporting Period                 19

Section 5(a)(7)       Summary of Significant Reports                                      6

Section 5(a)(8)       Statistical Table – Questioned Costs                               21

Section 5(a)(9)       Statistical Table – Recommendations That Funds Be Put to Better   None
                      Use

Section 5(a)(10)      Summary of Audit Reports Issued Before the Commencement of        None
                      the Reporting Period for Which No Management Decision Has
                      Been Made

Section 5(a)(11)      Significant Revised Management Decisions Made During the           13
                      Reporting Period

Section 5(a)(12)      Significant Management Decisions With Which the Inspector          15
                      General Is in Disagreement

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal         None
                      Financial Management Improvement Act of 1996

Section 5(a)(14)(A)   Peer Review Reports Conducted on U.S. Election Assistance         None
                      Commission Office of Inspector General during the Reporting
                      Period




                                                26 

 Section of Act                                Requirement                            Page
Section 5(a)(14)(B)   Statement of Peer Review Conducted on the U.S. Election          17
                      Assistance Commission Office of Inspector General during a
                      Prior Reporting Period

Section 5(a)(15)      Outstanding Recommendations from a Peer Review Report on        None
                      the U.S. Election Assistance Commission Office of Inspector
                      General

Section 5(a)(16)      Peer Review Reports Conducted by the U.S. Election Assistance   None
                      Commission Office of Inspector General




                                                27 

                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general.

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission 

of OIG Reports
                                Office of Inspector General 

                                1201 New York Ave. NW - Suite 300 

                                Washington, DC 20005 


                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1201 New York Ave. NW - Suite 300
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general

                           FAX: 202-566-0957
           Inspector General 

          U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the
internet at: www.eac.gov/inspector_general
